    Case No: I91010003                        eptember 26, 1991
    Subject: Interview with




           a Compute
                at NSF.     After a #short introduction,
                                                        m-
                26, 1991, at approximately 11:15 a.m., I,
         accompanied                    to the interview of
                                       t within the Directors
given a copy of t,pe January 11, 1991 Network advertrsement
sect-Son ,--wh-i-ch
                  --i-nc-1-uded-
                             an
                                                                 was

900 telephone lines. The
e-mail address for response.
the ad was brought to the atten
appeared to foster a little business being run from his NSF
office.     We had discussed this matter previously with
direct supervisor in the Directorate of Engineering,
         who had no knowledge of -conducting            any personal
business on NSF time or with NSF resources.
1was questioned         as to why he included his phone number at
NSF and also his e-mail address as points of contact for
response, when the ad pertained to a personal business venture.
       responded by saying that he probably did so because his
          burned down earlier in the year and his telephone lines
had not yet been restored. -stated         that he received two e-
mail responses to the ad, but made no further comments about the
            stated t h a t h a s discussed matters of keeping
pers                 separate from business activities with him in
the past.
conducting person
                     reemphasized tow       the importance of not
                      business on NSF time or with NSF resources.
In response, -stated         that he understood that his personal
business must be kept separate from his professional business and
went on to assure us that he was not conducting any personal
business on NSF time or with NSF resources. In regard to the ad
he submitted,
               a        offered one suggestion: that all ads be
previously screene by the personnel office prior to their
publication to ensure their appropriateness.




                      e displayed to us.             ed that he is
             any books at the present ti             is burned out
from his previous writing endeavors.
All matters pertaining to the above issues have been resolved
and this case is accordingly closed.
                                     Sept. 27, 1991
